Review of N!R!’s Contract for Information Technology and
          Telecommunications Support Services



              OIG Audit Report No. 10-05



                    August 18, 2010

                                                                                             OIG Audit Report No. 10-05



Table of Contents


Executive Summary ...................................................................................... 3


Background.................................................................................................... 6


Objectives, Scope, Methodology .................................................................. 9


Audit Results ............................................................................................... 11

  Protecting Government Interests ........................................................ 11


    Surveillance of Contractor.................................................................... 20


    Task Order Requirements ................................................................... 26


    Other Matters......................................................................................... 34


Attachments

   Attachment 1 - Capstone Labor Charges vs. General Dynamics Labor 

Charges......................................................................................................... 36


    Attachment 2 - Invoice Review: Draft vs. Final................................. 37


    Attachment 3 - Quality Assurance Surveillance Plan (Sample)........ 39


   Attachment 4 - Survey of Information Technology Support Services

Performed at Other Government Agencies.............................................. 47


Appendices

  Appendix A – Acronyms and Abbreviations ....................................... 48


    Appendix B - Report Distribution List ................................................ 49


    Appendix C - Management’s Response to the Report ....................... 50





                                                  Page 2

                               National Archives and Records Administration
                                                                                             OIG Audit Report No. 10-05



Executive Summary


We reviewed the National Archives and Records Administration’s (NARA’s) $56 million task
order recently awarded to the Capstone Corporation1 to acquire information technology (IT) and
telecommunication support services for the agency. The effort was performed in connection
with our ― Assessment of NARA’s Procurement and Contract Management Practices,‖ the details
of which are discussed in our Fiscal Year (FY) 2010 Annual Work Plan. Through this project,
which will include several contracts awarded by the Acquisitions Services Division (NAA), we
plan to: (a) review contractor billings; (b) review contracts and procurement processes for
compliance with the Federal Acquisition Regulation (FAR); and (c) evaluate the monitoring of
contractor performance by NARA officials. We will also perform pre-award surveys, contract
closeouts, and other contract audit services requested by management.

According to the FAR, all participants in the Federal Acquisition System are responsible for
making acquisition decisions that deliver the best value product or service to the customer. Best
value must be viewed from a broad perspective and is achieved by balancing the many
competing interests in the system. The result is a system which works better and costs less.

Fixed-price-type contracts generally expose the government to less risk than other contract
vehicles. However, there has been a trend in the Federal Government to increasingly use cost-
reimbursement type contracts. To reverse this trend, a White House Memorandum for the Heads
of Executive Departments and Agencies, dated March 4, 2009, the subject of which is
government contracting, states, ―    The Federal Government has an overriding obligation to
American taxpayers. It should perform its functions efficiently and effectively while ensuring
that its actions result in the best value for the taxpayers. … Reversing these trends away from
full and open competition and toward cost-reimbursement contracts could result in savings of
billions of dollars each year for the American taxpayer.‖

While this memorandum was issued after NARA’s initial procurement actions reviewed in this
audit, the underlying procurement principles have remained constant, and the memorandum
documents the historical issues involved with federal acquisitions during the relevant period.
For example, the memorandum states that excessive reliance by executive agencies on high risk
contracting authorities creates a risk that taxpayer funds will be spent on contracts that are
wasteful, inefficient, subject to misuse, or otherwise not well designed to serve the needs of the
Federal Government or the interests of the American taxpayer. The memorandum further
acknowledged, ―   Reports by agency Inspectors General (IGs), the Government Accountability
Office (GAO), and other independent reviewing bodies have shown that noncompetitive and
cost-reimbursement contracts have been misused, resulting in wasted taxpayer resources, poor
contractor performance, and inadequate accountability for results.‖



1
    The contract period of performance, which consists of a base year and four options, is five years.
                                                    Page 3
                                 National Archives and Records Administration
                                                                             OIG Audit Report No. 10-05



Our review of the new NARA Information Technology and Telecommunications Support
Services (NITTSS) Task Order disclosed that:

    • agency officials had the opportunity to select a contractual arrangement with less inherent
risk to NARA for acquiring these services;

    • NARA officials did not prepare a Determination and Findings (D&F) justifying their use of
a Time-and-Materials (T&M) component to this acquisition, and their documented rational for
using other than a firm-fixed-price (FFP) order or performance-based order was inadequate;

   • the Quality Assurance Surveillance Plan (QASP) for the Capstone Task Order did not
adequately describe the methodology, frequency, documentation required, or reporting on
requirements;

   • contractor performance was not being evaluated on the basis of achieving the Service
Level Agreements (SLAs) in the Task Order;

   • the surveillance process was poorly documented and not well-organized for review;

   • the contractor was not complying fully with the Task Order’s Invoice Submission
Requirements; and

    • the contractor has failed to satisfy task order requirements related to the delivery of data
items.

As a result, (a) most of the risk for task order performance resides with the government; (b) there
is no documented evidence to support that sufficient research and analysis was performed prior
to choosing a T&M type of task order to procure the information technology and
telecommunications support services; (c) NARA lacks assurance that the contractor is
performing contractual effort efficiently, and in accordance with task order specifications; (d)
task order management officials cannot be assured contractor billings are accurate; and (e) the
operation and maintenance of NARA's computer network could be adversely impacted as a result
of the contractor not meeting its task order deliverable requirements.

The Federal Government as a whole is attempting to move away from high-risk vehicles like
T&M procurements. Recently, and notably well after NARA’s initial procurement actions, the
Office of Management and Budget (OMB) directed agencies to reduce their use of such vehicles.
In the first half of FY 2010 the percentage of dollars awarded in new T&M or labor hour
contracts dropped by seven percent compared to the same time period in FY 2009. Seventeen of
the larger agencies were able to cut their T&M, labor hour, or cost-reimbursement contracts by at
least 10 percent.

Results of this audit were circulated via traditional practice in a draft report to appropriate
management officials who opted to elevate their ―   concerns‖ and feedback to the Archivist of the
United States. Some points raised by those officials have been addressed, however, other

                                             Page 4
                          National Archives and Records Administration
                                                                             OIG Audit Report No. 10-05



comments presented were found to be unwarranted and unsustainable. Following are examples
of management's comments along with a brief response.

    a. According to the NARA officials, the Office of Inspector General (OIG) auditors failed to
evaluate and consider FAR Part 8, Required Sources of Supplies and Services, in conducting
their fieldwork. Per NARA officials, this oversight was critical as this section of the FAR
formed the regulatory basis for the NITTSS procurement. In reality, the audit workpapers
showed that this section of the FAR was indeed referenced and evaluated. It appears the true
issue is how management interprets FAR Part 8’s relationship to FAR Part 12.

    b. It was presented that the reference to the White House memorandum, Government
Contracting, dated March 4 2009, was erroneous or an oversight on the part of the auditors as the
memorandum was issued after the NITTSS contract was awarded. This representation is
incorrect on two levels. First, the auditors presented this information, with the date clearly
indicated, for the benefit of the reader, and most importantly, the new Archivist. Second, this
task order is an ongoing contractual action, and future procurement decisions will have to be
made because there are four fiscal year options that can be exercised to extend the period of
performance. The referenced White House memorandum should certainly be of consideration to
the current NARA administration.

    c. Management officials stated that, because the NITTSS task order is a T&M type
arrangement and not a cost-reimbursement type contract, the risk factors we identified are not
present. According to the FAR there are only two general types of contract actions, fixed-price
and cost-reimbursement. The only thing fixed in a T&M contract is the price per labor hour.
The total contract amount, i.e., the total labor hours to be expended by the contractor is not fixed.
In the NITTSS task order the contractor is paid for each labor hour expended without regard to
whether the labor produces the final product needed by the government. The more labor hours
expended, the more profit earned by the contractor. Thus, the government bears a risk of paying
for work without receiving a finished product, unlike a typical FFP contract.

We made six (6) recommendations that, when implemented by management, will assist the
agency in correcting the reported deficiencies, and in ensuring government interests are protected
for the contractor-provided information technology and telecommunications support services.




                                             Page 5
                          National Archives and Records Administration
                                                                                           OIG Audit Report No. 10-05



Background


NARA’s strategy was to award the new NARA information technology and telecommunication
support services (NITTSS) task order under GSA Schedule 70, Information Technology
Professional Services, to a small business that could subcontract with any size firm, subject to
the agency’s approval. The Capstone Corporation, a small business, is the prime contractor
performing the contractual effort in a teaming arrangement with General Dynamics Information
Technology (GDIT), Incorporated; Siemens Corporation; and Tassa Corporation. According to
Capstone’s Task Order proposal, staffing will consist of 73 full-time employees in the base year
of the Task Order, growing to 77 employees by the fifth year of the Task Order.

NARA’s task order, NAMA-09-F-0015, is a hybrid arrangement consisting of both firm-fixed-
price2 (FFP) and time-and-materials3 (T&M) effort. The majority of the $56.02 million Task
Order effort is T&M (80 percent), with only management and oversight performed on a fixed-
price (20 percent) basis. A T&M arrangement provides for acquiring supplies or services on the
basis of (1) direct labor hours at specified fixed hourly rates that include wages, overhead,
general and administrative expenses, and profit, and (2) materials at cost, including, if
appropriate, material handling costs. This arrangement is a ―    best effort‖ contracting approach,
i.e., the contractor is paid based on the number of hours worked and is not required to produce a
deliverable at a set price. This is analogous to hiring a house painter, telling him to do his best,
and then simply paying him for however long he takes or how much he spends on paint, until he
is either done or you are out of money. Thus T&M arrangements generally do not provide
contractors with the strongest incentive to reduce costs to the government, because reducing
costs to the government also serves to reduce their profit. This is one reason why this
procurement type is disfavored, and why its use is subjected to special requirements such as
detailed determinations and findings documenting why the government chooses this type of
action.4

The task order requires the contractor to:

      • provide Help Desk5services for all users of the agency’s computer network (known as
    NARANet);

        • provide network operations, maintenance, and monitoring to ensure NARANet
    performance and availability requirements. Network services include shared drives, Intranet
    access, Internet access, local area networks, and the wide area network.

2
  A firm-fixed-price (FFP) contract provides for a price that is not subject to any adjustment on the basis of the 

contractor’s cost experience in performing the contract.

3
  A time-and-materials (T&M) contract provides for acquiring supplies or services on the basis of (1) Direct labor

hours at specified fixed hourly rates that include wages, overhead, general and administrative expenses, and profit; 

and (2) actual cost for materials.

4
  More on the need for producing a D&F is discussed below.

5
  A Help Desk is a service that provides information and assistance to the users of a computer network.

                                                 Page 6
                              National Archives and Records Administration
                                                                                          OIG Audit Report No. 10-05




       • manage NARA’s phone systems including Private Branch eXchange6, voice mail,
    analog lines, and other phone system components.

       • initiate network protection measures according to National Institute of Standards and
    Technology (NIST), Federal Information Security Management Act (FISMA), Office of
    Management and Budget (OMB), United States Computer Emergency Readiness Team (US-
    CERT), and other federal security requirements; and industry ―
                                                                 best practices.‖

        • track, install, deploy, administer, manage and maintain, and operate all desktops,
    laptops, personal digital assistants, and associated peripheral devices, and provide multi-
    tiered support and management of associated hardware and software components.

         • manage and support NARA’s servers.

         • provide e-mail, file, and print services.

         • provide support for Cuadra Star7, a product of Cuadra Associates.

         • manage user accounts, passwords, and rights to applications and file systems.

       • perform Release Management in accordance with a NARA-approved, contractor-
    provided Release Management Plan.

        • manage and track the licenses and maintenance support renewals of hardware and
    software.

         • perform asset management for all NARA information technology assets.

       • conduct technology refresh initiatives such as performing requirements analysis,
    capacity planning, determining specifications, and performing market research.

        • for all NARA locations where there is not an on-site help desk, provide, via Field
    Office System Administrators (FOSAs), operations and maintenance support that must be
    performed on-site.

         • provide formal, comprehensive program and project management.




6
  A Private Branch eXchange (PBX) is an in-house telephone switching system that interconnects telephone 

extensions to each other as well as to the outside.

7
  Cuadra Star is software that supports the management of archival collections of all types, including archive,

museum, photographic, and image collections.

                                                 Page 7
                              National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05



The NITTSS task order was awarded based on the procedures in FAR Subpart 8.4—Federal
Supply Schedules. The stated purpose of the Federal Supply Schedule program, directed
and managed by the General Services Administration (GSA), is to provide federal agencies
with a simplified process for obtaining commercial supplies and services at prices
associated with volume buying. NARA officials used the procedures in FAR Subsection
8.405-2 - Ordering procedures for services requiring a statement of work. FAR Subsection
8.405-2 requires that:

    • ! Statement of Work (SOW) be prepared that includes the work to be performed;
location of work; period of performance; deliverable schedule; applicable performance
standards; and any special requirements.

    • ! Request for Quotation (RFQ) that includes the SOW and evaluation criteria
(e.g., experience and past performance), be provided to schedule contractors that offer
services that will meet the agency’s needs.

   • The ordering activity evaluate all responses received using the evaluation criteria
provided to the schedule contractors.

   • The order be placed with the schedule contractor that represents the best value.

    • The ordering activity document: the schedule contracts considered, noting the contractor
from which the service was purchased; a description of the service purchased; the amount paid;
the evaluation methodology used in selecting the contractor to receive the order; the rationale for
any tradeoffs in making the selection; the price reasonableness determination; and the rationale
for using other than a firm-fixed price order, or a performance-based order.

The NITTSS task order was for the acquisition of a commercial item under the definition in FAR
Section 2.101. Acquisitions of commercial services have special requirements found in FAR
Part 12. FAR Section 8.404 – Use of Federal Supply Schedules specifically excludes some FAR
sections from orders placed against a Federal Supply Schedule using the procedures of FAR
Section 8.405. However, FAR Part 12 is specifically not excluded. If a T&M contract vehicle is
used to procure commercial services, FAR Section 12.207 demands that the Contracting Officer
(CO) execute a determination and finding (D&F) that no other contract type authorized by FAR
Subpart 12.2 is suitable, and contains several other more specific requirements.

NARA officials have stated they believe the D&F is not necessary or required. However, because
only certain FAR Parts were excluded, then those not specifically excluded still apply.
Conversely, even if FAR Subsection 8.405-2 excuses NARA from preparing a mandatory D&F,
the risk factors involved with a T&M contract make the preparation of a well-detailed D&F
essential to protecting government interests and documenting management actions in this type of
acquisition activity. This is discussed in further detail later in the report.



                                            Page 8
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05



Objectives, Scope, Methodology


Our objectives for reviewing this task order were to determine if (a) the procurement of the
Office of Information Services (NH) NITTSS task order was accomplished in accordance with
the FAR requirements, and (b) NH officials adequately monitor contractor efforts, to ensure the
government gets good value for the funds expended on the task order.

To accomplish our objectives, we determined if: (a) NARA officials selected an appropriate type
of arrangement for acquiring information technology and telecommunications support services
for NARANet, one that would motivate the contractor to perform contractual effort effectively
and efficiently; (b) subcontractor costs on the Capstone Task order are reasonable and
appropriate; (c) NAA contracting officials complied with FAR requirements prior to the award
of the Capstone Task Order for information technology and telecommunications support
services; (d) NARA officials, including the Contracting Officer’s Technical Representative
(COTR) and performance monitors, are performing appropriate government surveillance of
contractor performance, to assure that the contractor is using efficient methods and effective cost
controls in the accomplishment of task order requirements; and (e) the Capstone Corporation is
complying with the terms and conditions of its task order with NARA.

We examined procurement-related guidance including:

   a. FAR; (i) Section 1.102: Statement on Guiding Principles; (ii) Subpart 1.7 –
Determinations and Findings; (iii) Part 8: Required Sources of Supplies and Services; (iv)
Subpart 12.2: Special Requirements for the Acquisition of Commercial Items; (v) Subpart 16.2:
Fixed-Price Contracts; (vi) Subpart 16.6: Time-and Materials, Labor-Hour, and Letter
Contracts; (vii) Subpart 37.1 – Service Contracts; and (viii) Section 46.401 - Government
Contract Quality Assurance.

   b. President’s Memorandum on Government Contracting, dated March 4, 2009.

    c. OMB Policy Letter no. 93-1 (Reissued), Management Oversight of Service Contracting,
dated May 18, 1994.

   d. OMB memorandum no. M-09-25, Improving Government Acquisition, dated July 29,
2009.

  e. Office Of Federal Procurement Policy (OFPP), A Guide To Best Practices For Contract
Administration, October 1994.

   f. NARA 501, NARA’s Procurement Guide.



                                            Page 9
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 10-05



Our audit work, which began in June 2009 and was completed in October 2009, was performed
at Archives II in College Park, Maryland. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.




                                            Page 10
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05



Audit Results


                        PROTECTING GOVERNMENT INTERESTS

The vision for the Federal Acquisition System is to deliver on a timely basis the best value
product or service to the customer, while maintaining the public’s trust and fulfilling public
policy objectives. Participants in the acquisition process should work together as a team and
should be empowered to make decisions within their area of responsibility.

According to FAR Section 1.102, Statement of Guiding Principles for the Federal Acquisition
System, the Federal Acquisition System will (a) satisfy the customer in terms of cost, quality,
and timeliness of the delivered product or service by, for example, maximizing the use of
commercial products and services; using contractors who have a track record of successful past
performance or who demonstrate a current superior ability to perform; and promoting
competition; (b) minimize administrative operating costs; (c) conduct business with integrity,
fairness, and openness; and (d) fulfill public policy objectives.

The Federal Government shall ensure that taxpayer dollars are not spent on contracts that are
wasteful, inefficient, subject to misuse, or otherwise not well designed to serve the Federal
Government's needs and to manage the risk associated with the goods and services being
procured. The Federal Government must have sufficient capacity to manage and oversee the
contracting process from start to finish, so as to ensure taxpayer funds are spent wisely and are
not subject to excessive risk.

To demonstrate the importance of the issues involved in contract type selection, a White House
Memorandum for the Heads of Executive Departments and Agencies, dated March 4, 2009, (the
White House Memorandum) was issued stating there shall be a preference for fixed-price type
contracts, and cost-reimbursement contracts shall be used only when circumstances do not allow
the agency to define its requirements sufficiently to allow for a fixed-price type contract. OMB
Memorandum 09-25, Improving Government Acquisitions, dated July 29, 2009, was issued in
response to, and implemented, the White House Memorandum. OMB M-09-25 clarified that
time-and-materials and labor-hour contracts were covered by the White House Memorandum.

While the White House Memorandum and OMB M-09-25 were issued after NARA’s initial
contract action, the issues they identify certainly existed and were apparent in the contracting
community while NARA was determining how to proceed on the initial procurement. For
example, on March 6, 2007, Rep. Henry A. Waxman introduced H.R. 1362, ―         Accountability in
Contracting Act.‖ The purpose of the legislation was to change federal acquisition law to require
agencies to limit the use of abuse-prone contracts, to increase transparency and accountability in
federal contracting, and to protect the integrity of the acquisition workforce. The bill passed by a
wide margin in the House of Representatives but was not voted on in the Senate.



                                            Page 11
                         National Archives and Records Administration
                                                                                  OIG Audit Report No. 10-05



Further, while NARA certainly cannot be held to the standards directed in the memorandums on
the initial procurement, this acquisition has multiple option years upcoming.

OMB M-09-25 requires agencies to take the following actions: (1) review their existing contracts
and acquisition practices and develop a plan to save 7 percent of baseline contract spending by
the end of FY 2011; and (2) reduce by 10 percent the share of dollars obligated in FY 2010 under
new contract actions that are: (1) awarded noncompetitively and/or receive only one bid in
response to a solicitation or a request for quote, (2) cost-reimbursement contracts or (3) time-
and-materials/labor hour (T&M/LH) contracts.

According to that memorandum, while T&M/LH contracts can be valuable tools in acquisitions,
they pose special risks of overspending because they provide no direct incentive to the contractor
for cost control. Reports from the GAO, IGs, and agency management indicate that these
contracts are often used without an appropriate basis or sufficient management and oversight to
limit taxpayer risk.

After issuing OMB M-09-25, OMB has reported good success in their efforts to reduce agencies’
use of cost reimbursement and T&M vehicles. In the first half of FY 2010 the percentage of
dollars awarded in new T&M or labor hour contracts dropped by seven percent compared to the
same time period in FY 2009. Seventeen of the larger agencies were able to cut their T&M,
labor hour, or cost-reimbursement contracts by at least 10 percent. According to OMB,
―Agencies are achieving these reductions through the implementation of sound contracting
practices such as peer reviews and contract review boards that bring seasoned contract and other
experts together to help contracting and program offices identify and address high risk
practices.‖8

Subsequent to the completion of our audit fieldwork, management officials stated that the OIG
auditors cited criteria that those officials considered to be ―
                                                              irrelevant administration
memoranda.‖ The Director, Acquisitions Services Division (NAA) was ―        uncertain as to the
intent of the OIG in referencing these memoranda, since both were issued post NITTSS Task
Order issuance.‖

The memos in question are not presented as support or criteria for a procurement decision made
prior to their issuance. As discussed above, our intent is two-fold. They highlight the issues
which were present when NARA was making its initial decision, and they should be used in
looking forward to evaluating the future of this procurement action. Most importantly, there are
four fiscal year options that can be exercised to extend the period of performance. Before
exercising each option to extend the NITTSS Task Order performance for another year, the
contracting officer (CO) must ensure that the exercise of the option is the most advantageous
method of fulfilling the government’s need, price and other factors considered. We believe it to
be extremely important for the contracting officer, before exercising the NITTSS Task Order
options, to seriously consider the Obama Administration initiatives for improving government
acquisitions.
8
 See OPM Blog post, Cutting Waste and Saving Money Through Contracting Reform, July 7, 2010 at
http://www.whitehouse.gov/omb/assets/blog/Update_on_Contracting_Reforms.pdf.
                                              Page 12
                           National Archives and Records Administration
                                                                                 OIG Audit Report No. 10-05




Management also contends a T&M contract is not in any way a cost-reimbursement type
contract. We agree FAR Subpart 16.3, specifically laying out requirements for ―   Cost
Reimbursement Contracts‖ does not apply here, as FAR Subpart 16.6 lays out more specific
requirements for ―  Time-and-Materials, Labor-Hour, and Letter Contracts.‖ However, we do
disagree with management’s contention that T&M contracts are not cost-reimbursement type
contracts at all. According to FAR Subpart 16.1—Selecting Contract Types, Section 16.101,
General (b), contract types are grouped into two broad categories: fixed-price contracts and cost-
reimbursement contracts. The only thing fixed in a T&M contract is the price per labor hour.
While there has been some confusion about this in the contracting community, just because the
labor hour rate is fixed, that does not in any way make a T&M contract a fixed price type action.9
In very basic terms, for every hour the contractor expends the government reimburses their costs,
and gives them extra for profit. In the NITTSS task order the contractor is paid for each labor
hour expended without regard to whether the labor produces the final product needed by the
government. Thus, the government bears a risk they will pay for work without receiving a
finished product, unlike a typical firm-fixed price contract. If there was any ambiguity in the
current situation, OMB M-09-25, which contains implementing guidance for the White House
Memorandum, clarified it by specifically including T&M contracts.

To further demonstrate, the General Services Board of Contract Appeals (GSBCA) in CACI,
INC-Federal v. General Services Administration, GSBCA 15588, decided December 13, 2002,
provides a good discussion of this issue. CACI received a T&M Task Order, under its GSA
Schedule to provide information technology services to the U.S. Virgin Islands (USVI). The
order required CACI to analyze and implement software developed elsewhere. CACI performed
some work but the USVI did not pay the invoices stating CACI failed to deliver required services
and failed to deliver a usable product. In its ruling, the GSBCA stated "In essence, the time-and-
materials order falls within the broad genre of cost-reimbursement type contracts. This type of
contract places relatively little cost or performance risk on the contractor."

A More Advantageous Type of Contract Could Have Been
Selected to Acquire IT Support Services

For the bulk of acquisition of information technology and telecommunications support services,
NARA contracting officials awarded a type of task order providing little or no incentive for the
contractor to control costs, because the contractor’s profits are tied to the time it takes to perform
the work. In a contractual sense, the contractor is not motivated to perform efficiently. As a
result, the contractual arrangement selected for this procurement is not the most advantageous
way for NARA to acquire these services.




9
 For additional details, see GAO Audit Report, GAO-09-579, Contract Management: Minimal Compliance with
New Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards Have Not Been
Applied to GSA Schedules Program, June 2009.
                                              Page 13
                           National Archives and Records Administration
                                                                                        OIG Audit Report No. 10-05



A hybrid task order, consisting of both T&M and FFP line items, was awarded. The majority of
the $56.02 million Task Order effort (approximately 80 percent) is T&M effort.10 NARA
officials, when ordering services under this GSA Schedule contract, had the option of requesting
Capstone to submit a FFP to provide the entirety of services outlined in the SOW. In fact, the
specific provision NARA used for this acquisition, FAR Subsection 8.405-2, specifically states
―[t]he ordering activity should request that contractors submit firm-fixed prices to perform the
services identified in the statement of work.‖ Further, Capstone’s GSA contract states a FFP
order should be requested, unless the ordering activity makes a determination that it is not
possible at the time of placing the order to estimate accurately the extent or duration of the work
or to anticipate cost with any reasonable degree of confidence.

However, according to the NAA Director, a T&M type arrangement was selected based on the
set of requirements provided to NAA.11 NARA’s acquisition plan simply states:

        T&M is the best solution for NARA because it is more conducive to accommodating
        changes in priorities. T&M is also a good solution for a contractor when the quantity of
        the services are subject to change or are not quantifiable prior to award, as is the case
        with much of the performance work statement.

Nowhere in the acquisition plan does NARA describe either the facts behind, or the methodology
used to arrive at the conclusion that much of the performance work statement services ―   are
subject to change or are not quantifiable prior to award.‖ According to FAR Subpart 16.6, a
T&M contract may be used only when it is not possible at the time of placing the contract to
estimate accurately the extent or duration of the work or to anticipate costs with any reasonable
degree of confidence. Whether or not FAR Subpart 16.6 applies as a requirement to acquisitions
under the Federal Supply Schedules, this is sound policy to protect the taxpayer. Further, in an
audit report concerning contract management12, GAO states:

        The cost growth on T&M contracts can be significant; we and agency inspectors general
        have reported numerous instances in which the costs grew to more than double the
        original value—in one case a contract increased to almost 19 times the original price.
        Although these contracts may be appropriate in certain circumstances, we reported in
        2007 that contracting officers used this contract type for ease and flexibility in the face of
        unclear requirements or funding uncertainties and did not adequately determine, as
        required, that no other contract type was suitable.

The FAR warns that COs should avoid protracted use of a T&M contract after experience
provides a basis for firmer pricing. The NITTSS Task Order is a procurement to acquire

10
    The remaining effort (20 percent) represents the contractor’s management efforts, and NARA should be
applauded for carving this out as a FFP effort.
11
   We noted that the agency’s general counsel reviewed the vendor selection process, but did not provide an opinion
on the type of contract chosen for the procurement.
12
   GAO Audit Report no. GAO-09-579, Contract Management: Minimal Compliance with New Safeguards for
Time-and-Materials Contracts for Commercial Services and Safeguards have not been Applied to GSA Schedules
Program
                                                 Page 14
                              National Archives and Records Administration
                                                                                 OIG Audit Report No. 10-05



information technology, telecommunications, and related support services. NARA has awarded
at least two previous contracts, with a total of ten years of effort, to acquire these types of
services. It appears reporting data from these contracts could have been able to establish a fixed-
price arrangement for NARA’s current information technology and telecommunications support
services contract task order. In fact, the previous contract for information technology support
services was a fixed-price-award-fee (FPAF) arrangement. According to the Acquisition Plan
for the NITTSS order, this previous award fee was an administrative burden to NARA and
caused contention between NARA and the contractor. However, with better administration and
surveillance of contractor performance by NARA officials, these enumerated challenges could be
overcome without resorting to a T&M procurement.13 In sum, NARA’s documentation for
choosing a T&M vehicle does not adequately discuss this, or show why NARA’s ten years of
experience would be an inadequate foundation to build a reasonable SOW on.

In order to get a general comparison of how the Federal Government was structuring these types
of contracts, the OIG surveyed nine other government agencies that utilize IT support services.
This was not a statistically-based or scientific sampling, but instead was a simple polling of nine
other smaller federal agencies, otherwise known as designated federal entities. We asked them
two questions: (1) Is your need for IT support services satisfied using in-house or contractor
resources, and (2) If contracted out, what type of contract do you use to acquire these services.
All nine agencies responded, showing: (a) five agencies use in-house resources to perform these
services; (b) three agencies outsource these services under FFP arrangements; and (c) one agency
uses a mix of in-house resources and contractor effort provided under a FFP arrangement.14

NARA management took great umbrage with this simple polling as it was not a statistical
sampling, and agencies were not selected based on how they compared to NARA by size or what
NARA management believes is the complexity of NARA’s IT systems. In their own polling
NARA identified two agencies it believed were more comparable, stating that Small Business
Administration used FFP vehicles, and the National Science Foundation used T&M vehicles.
Therefore, by either polling method it is apparent other agencies are able to use FFP vehicles for
these services.

In our opinion, NARA has not demonstrated that they gave adequate consideration to acquiring
these services through a FFP contract, or another fixed-price contract in conjunction with an
award-fee incentive and performance or delivery incentives. Such vehicles could have been a
better choice for acquiring the needed information technology and telecommunications support
services. It appears that sufficient evidence may have existed to accurately estimate the extent
and duration of the work, as well as the anticipated costs of the effort to be performed, with a
reasonable degree of certainty. However, NARA’s documentation provided to the OIG,
including the acquisition plan for the NITTSS Task Order, does not adequately address this
situation or explain statements used to justify the T&M selection.




14
     Full results of our survey are identified in Attachment 4 of the report.
                                                     Page 15
                                  National Archives and Records Administration
                                                                                          OIG Audit Report No. 10-05




Recommendation 1

The Director, Acquisitions Services Division (NAA), keeping in mind the recent guidance in
OMB Memorandum 09-25, Improving Government Acquisitions should, before exercising the
option for the first option year of the Capstone Task Order, ensure that the contracting officer
performs sufficient, documented research and analysis to determine if the T&M Task Order is
the most advantageous way to continue procuring information technology and
telecommunications support services for NARA. If exercising the option is not the most
advantageous way to continue acquiring these services, award a new, different type of contract,
e.g., firm-fixed-price that adequately protects the government’s interests.

Management Response

Management officials concurred with the recommendation, commenting that, before exercising
any option, they always fully considers whether exercising the option, and under what terms, is
in the best interests of the government

No Determination and Findings
Prepared for the Task Order

The contracting officer did not comply with the FAR requirement that a ―
                                                                       Determination and
Findings‖ (D&F) be prepared for the Capstone contract. That is, a D&F for the Capstone Task
Order was not prepared in accordance with either (a) FAR Subpart 16.6—Time-and-Materials,
Labor-Hour, and Letter Contracts, which is applicable to noncommercial T&M services, or,
more germane to this acquisition, (b) FAR Part 12 – Acquisition of Commercial Items15, which
requires more detailed analysis than is required when buying noncommercial services using
T&M contracts. As a result, there was no documented proof that sufficient research and analysis
was performed prior to choosing a T&M type of task order to procure the information
technology and telecommunications support services.

According to the CO, a D&F was not required because the justification appears in the
Acquisition Plan when the effort is not fixed-price. We disagree with the contracting officer’s
contention, because the Acquisition Plan contained no information justifying the use of a T&M
contract.

The D&F is a special form of written approval by an authorized official that is required by
statute or regulation as a prerequisite to taking certain contract actions. The ―determination‖ is a
conclusion or decision supported by the ―    findings.’’ The findings are statements of fact or
rationale essential to support the determination and must cover each requirement of the statute or
regulation.


15
  Commercial items include items that are of a type customarily used by the general public or nongovernmental
entities for purposes other than governmental purposes and have been sold, leased, or licensed to the general public
or have been offered for sale, lease, or license to the general public.
                                                 Page 16
                              National Archives and Records Administration
                                                                             OIG Audit Report No. 10-05



FAR Subpart 16.6 generally addresses T&M contracts. Under this Subpart a T&M contract may
be used only if (a) the CO prepares a D&F that no other contract type is suitable, and (b) the
contract includes a ceiling price that the contractor exceeds at its own risk. The contracting
officer shall document the contract file to justify the reasons for and amount of any subsequent
change in the ceiling price. However, the NITSS procurement was for commercial services,
which have a more stringent D&F requirement under FAR Section 12.207. A commercial
services D&F has to verify no other contract type authorized by FAR Subpart 12.2 is suitable,
and:

   • include a description of the market research conducted

   • Establish that it is not possible at the time of placing the contract or order to accurately
   estimate the extent or duration of the work or to anticipate costs with any reasonable degree
   of certainty;

   • Establish that the requirement has been structured to maximize the use of firm-fixed-price
   or fixed-price with economic price adjustment contracts (e.g., by limiting the value or length
   of the time-and-material/labor-hour contract or order; establishing fixed prices for portions of
   the requirement) on future acquisitions for the same or similar requirements; and

   • Describe actions planned to maximize the use of firm-fixed-price or fixed-price with
   economic price adjustment contracts on future acquisitions for the same requirements.

The CO stated she did not prepare a D&F as she believed it was not required. The CO defined
that such justification appears in the Acquisition Plan when the effort is not fixed-price. The
entire Acquisition Plan section dealing with this issue states only:

       J. Fixed-price Versus Time-and-Materials

       The decision was made to receive the majority of the services as time-and-
       materials. T&M is the best solution for NARA because it is more conducive to
       accommodating changes in priorities. T&M is also a good solution for a
       contractor when the quantity of the services are subject to change or are not
       quantifiable prior to award, as is the case with much of the performance work
       statement.

       Fixed-price services will be obtained for management/oversight positions, and
       technical leads.

       The price for all deliverables will be part of either the T&M or fixed price.




                                            Page 17
                         National Archives and Records Administration
                                                                              OIG Audit Report No. 10-05



NARA officials stated that since this procurement was through a task order under the Federal
Supply Schedules using the provisions of FAR Subsection 8.405-2, then no D&F was needed
since FAR Subsection 8.405-2 includes the following language:


       e) Minimum documentation. The ordering activity shall document—


               (1) The schedule contracts considered, noting the contractor from which
               the service was purchased;


               (2) A description of the service purchased;


               (3) The amount paid;


               (4) The evaluation methodology used in selecting the contractor to receive
               the order;


               (5) The rationale for any tradeoffs in making the selection;


               (6) The price reasonableness determination required by paragraph (d) of
               this subsection; and


               (7) The rationale for using other than—


                      (i) A firm-fixed price order; or


                      (ii) A performance-based order.

According to NARA officials, as long as a rationale is given in the acquisition plan, no D&F
need be documented. However, earlier in FAR Part 8, Section 8.404 – Use of Federal Supply
Schedules, specifically excludes some FAR sections from applying to orders placed against a
Federal Supply Schedule. Most notably, FAR Part 12 is specifically not excluded, and thus it is
arguably applicable.

As such, there appears to be some ambiguity between the FAR Subsection 8.405-2 ―       minimum‖
requirement for a ―rationale for using other than a firm-fixed price order, or a performance-based
order,‖ and FAR Section 8.404 which specifically does not exclude FAR Part 12’s D&F
requirement for T&M-based commercial acquisitions. Because only certain FAR Parts were
excluded, then those not specifically excluded should still apply.
                                            Page 18
                         National Archives and Records Administration
                                                                                   OIG Audit Report No. 10-05




We note that NARA is not alone in their interpretation of the FAR. In an audit of T&M
contracts for commercial services16, GAO found that the FAR Part 12 D&F requirement has not
been applied to the GSA Schedules program. According to the GAO, GSA has concluded that
the applicability of the FAR Part 12 D&F requirement to the schedule program ―is unc   ertain but
stated that existing regulations satisfy concerns about use of T&M under the schedules program.‖
In response the GAO noted that those regulations do not require the same level of detailed
analysis as does a FAR Part 12 D&F, and there is no indication that the statutory requirements
cannot apply to items or services under the schedules program. This GAO report was published
in June 2009, well after NARA’s initial procurement decisions. It is referenced here only to
provide context as to how others have interpreted the FAR when examining these provisions.

However, regardless of whether FAR Subsection 8.405-2 excuses NARA from preparing a
mandatory D&F, the risk factors involved with a T&M contract remain. Therefore the
preparation of a well detailed D&F is still essential to protecting government interests and
documenting management actions in this type of acquisition activity.

Recommendation 2

The Director, Acquisitions Services Division (NAA) should, for future procurements involving a
T&M contract, ensure that contracting personnel comply with the FAR requirement that a
―Determination and Findings‖ be prepared. The D&F should: (a) include a description of the
market research conducted; (b) establish that it is not possible at the time of placing the contract
or order to accurately estimate the extent or duration of the work or to anticipate costs with any
reasonable degree of certainty; (c) establish that the requirement has been structured to maximize
the use of FFP contracts on future acquisitions for the same or similar requirements; and (d)
describe actions planned to maximize the use of FFP or fixed-price with economic price
adjustment contracts on future acquisitions for the same requirements.

Management Response

Management officials concurred with the recommendation, stating that they prepare D&Fs when
required by the FAR or other regulations.




16
  GAO Audit Report no. GAO-09-579, Contract Management: Minimal Compliance with New Safeguards for
Time-and-Materials Contracts for Commercial Services and Safeguards have not been Applied to GSA Schedules
Program; June 2009.
                                               Page 19
                            National Archives and Records Administration
                                                                                           OIG Audit Report No. 10-05



                       SURVEILLANCE OF CONTRACTOR PERFORMANCE


A T&M pricing arrangement requires costing and performance review by cognizant technical
personnel to ensure the efforts are provided in a satisfactory and efficient manner. If the
contractor expends all the hours available and the effort is not yet complete, the government
must add additional hours to the contract to complete the effort, or simply go without a finished
product or completed service. Therefore, the contractor incurs limited risk under this type of
contract; thus, the majority of risk for contract performance resides with the government.

According to FAR, Subsection 16.601 (c) (1), a time-and-materials contract provides no positive
profit incentive to the contractor for cost control or labor efficiency. Therefore, surveillance of
contractor performance is especially important. The surveillance effort must be timely,
comprehensive, systematic, and well-documented. Unless appropriate government surveillance
of contractor performance is performed, NARA cannot be assured that the contractor is using
efficient methods and effective cost controls in the accomplishment of the contract requirements.

NARA 501, NARA’s Procurement Guide, defines a contracting officer’s technical representative
(COTR) as the government’s representative nominated by the Division Director or Office Head
of the technical office, appointed in writing by the Procuring Contracting Officer (PCO)17, and
designated in the contract, to function as the technical representative to the PCO. Among his/her
other duties, the COTR is responsible for (a) monitoring and overall technical management of
contract performance; (b) monitoring contract performance, providing inspection, and
acceptance of contractor performance, certifying that the goods and services are satisfactory and
performed in accordance with the contract’s terms and conditions; and (c) submitting a written
report to the CO addressing all aspects of the contractor’s performance, including cost
effectiveness, quality, and timeliness of performance.

Surveillance of Contractor Performance
was Inadequate

Our review disclosed that the COTR did not demonstrate an adequate, comprehensive, and well-
documented monitoring of contractor performance was performed, i.e., we found: (a) the Quality
Assurance Surveillance Plan (QASP) for the Capstone Task Order did not adequately describe
the methodology, frequency, documentation required, or reporting requirements; (b) contractor
performance was not being evaluated on the basis of achieving the Service Level Agreements
(SLAs) in the task order; and (c) the surveillance process was poorly documented and not well-
organized for review. As a result, NARA officials may be accepting substandard performance,
or may be paying for services not received, i.e., the agency has not ensured that the contractor is
complying with the terms of its task order, or that the agency is receiving the best value from
these services.

The surveillance process was poorly documented and not well-organized for review. For
example, (1) there was no documentation available to support that the technical monitors

17
     A PCO is the government’s official authorized by warrant to enter into the contract for the government.
                                                   Page 20
                                National Archives and Records Administration
                                                                                       OIG Audit Report No. 10-05



performed any detailed tests and/or analyses of contractor performance; (2) no minutes were
prepared for meetings held where the contractor’s performance was discussed; and (3) the COTR
did not maintain an official file containing contractual documentation and monitoring results, nor
did the COTR submit written reports, addressing all aspects of the contractor’s performance,
including cost effectiveness, quality, and timeliness of performance, to the CO.

The COTR commented that she maintains detailed files, both in hard copy and electronic.
According to her:

        A discussion regarding these files was held via email between the OIG and the
        Contracting Officer’s Representative (COR)18 on 14, 2009. A meeting was scheduled for
        the OIG auditor to review the COR files on October 15, 2009. During the meeting the
        OIG was provided with a large number of files that included:

             1. COR correspondence - 3 folders
             2. TM issues
             3. Deliverables
             4. Badge requests
             5. ODC requests
             6. Capstone out-processing forms
             7. Travel requests - non-recurring
             8. Invoice folders by month with all supporting documentation
                 9. Quality Control folder with approved minutes, audit results,
                 calendars and agendas
             10. Copy of the RFQ
             11. Copy of the contract‖

We met with the COTR on October 15, 2009 and found that she did not maintain a file and/or
folder dedicated to contractor monitoring activities or the results of those monitoring activities
conducted by her and the contract Technical Monitors. Instead, the COTR explained that she
had some documents on her desk and others in various folders, while other information related to
monitoring activities was in e-mail messages. She refused to allow us access to those folders.
Instead, she insisted that we tell her what we wanted to review, and she would provide it to us.

Surveillance, and documentation that it occurred, are required by the FAR. Moreover,
documentation is necessary to help ensure accountability over the surveillance process.
Surveillance begins with trained personnel being nominated for and assigned surveillance
responsibilities, and then conducting surveillance actions throughout the performance period of
the contract to ensure the government receives the services required by the contract. According
to the GAO Internal Control Standards19, control activities occur at all levels and functions of the
entity. They include a wide range of diverse activities such as approvals, authorizations,

18
   At times, the Contracting Officer’s Technical Representative (COTR) referred to herself as the Contracting
Officer’s Representative (COR).
19
   For additional information, see GAO Publication, Standards for Internal Control in the Federal Government, no.
GAO/AIMD-00-21.3.1, November 1999.
                                                Page 21
                             National Archives and Records Administration
                                                                             OIG Audit Report No. 10-05



verifications, reconciliations, performance reviews, maintenance of security, and the creation and
maintenance of related records which provide evidence of execution of these activities as well as
appropriate documentation. Internal control and all transactions and other significant events
need to be clearly documented, and the documentation should be readily available for
examination. All documentation and records should be properly managed and maintained.

Additionally, the contractor’s performance could not be adequately monitored using the Quality
Assurance Surveillance Plan (QASP) included as an attachment to the information technology
and telecommunications support services task order. The plan did not describe in sufficient
detail the surveillance methodology or steps to be performed by NARA’s technical monitors, i.e.,
(a) how they were to observe, test/sample, and evaluate the contractor’s performance, (b) the
frequency of surveillance, or (c) how they were to document contractor performance.

The QASP stated that NARA officials would perform ―subjec     tive‖ surveillance, including
customer feedback, and written perceptions of the quality of the contractor’s performance. In
addition, the plan stated that the COTR and her designated quality monitor(s) would monitor
how the contractor executes its Quality Control Plan (QCP) and would perform spot inspections
of QC outcomes on an ad-hoc basis as deemed necessary.

According to FAR 46.401, Quality Assurance Surveillance Plans should be prepared in
conjunction with the preparation of the SOW and should specify all work requiring surveillance;
and the method of surveillance. An adequate surveillance plan provides the foundation for a
comprehensive and systematic monitoring of contractor performance and a standard against
which actual surveillance efforts can be measured. A plan is needed to ensure the government
receives the quality of services called for under the task order, and pays only for the acceptable
level of services received. Without an adequate surveillance plan, NARA officials, e.g.,
contracting officers’ representatives and technical monitors, have no way of knowing what
contractor activities they should be monitoring and how they should monitor them.

The COTR also told us that the Technical Monitors created surveillance plans for their respective
areas of the task order. However, several times during our audit fieldwork, we asked her to
provide a surveillance plan for the task order that provided guidance specifying all the work
requiring surveillance and the method(s) of surveillance, i.e., (a) how the technical monitors
were to observe, test/sample, and evaluate the contractor’s performance, (b) the frequency of
surveillance, and (c) how the technical monitors were to document contractor performance.
Each time, the COTR replied that surveillance plans were being developed and that she would
provide them to us in the near future. As of the completion of our fieldwork, no surveillance
plans had been provided to us.

Further, contractor performance was not being evaluated on the basis of the contractor achieving
the Service Level Agreements (SLAs) in the task order, i.e., surveillance methodology was not
sufficient to ensure the agency is in fact getting the level-of-effort the contractor is billing. We
found no methods established for instructing the technical monitors how to measure contractor
performance in the areas of cost, schedule, or quality.


                                             Page 22
                          National Archives and Records Administration
                                                                             OIG Audit Report No. 10-0S



 Instead of having the technical monitors ensure that the contractor uses efficient methods and
 effective cost controls in the accomplishment of task order requirements, the COTR instructed
 the technical monitors to ensure that, in their assigned monitoring areas, the allotted hours were
 not exceeded. She informed thetask order technical monitors that contractor employees were
 only being billed against the contract line item number (CLIN) that they were bid on in the
 contractor's proposal regardless of which CLIN or CLINs they actually worked on. She also
 stated that the CO and she had pre-determined the contractor "burn rate" and that the technical
 monitors need not verify who did the work, only that in their assigned monitoring areas the
 allotted hours were not exceeded. The COTR cited an example of a contractor employee that
 was billing full time to CuadraStar support,even though the employee was working less than 8
 hours per month on that support.                                                         _.


 The COTR also stated:

        [Technical Monitors] conduct weekly meetings with the corresponding Technical Lead
        from NITTSS. These meetings were established to discuss performance, project status
        and issues within a specified area. The Technical Monitors' are also responsible for
        reviewing deliverables produced in their respective areas and providing comments as
        NARA's subject matter experts. The Technical Monitors provide monthly reports to the
        COR documenting performance and issues in their assigned areas ofresponsibility. In
        addition to the weekly Technical Monitor meetings there is a weekly Director's Meeting
        held every Wednesday. This meeting includes the COR, NHT Management, all
        Technical Monitors and NITTSS Management. In this meeting, the weekly report
        provided by the NITTSS, the weekly priority status from each Technical Monitor are all
        reviewed, and in depth discussions on Contract Performance and issues are conducted. In
        addition to the above meetings, there is a weekly meeting held with the COR and
        NITTSS Program Manager (PM). The parties to this meeting discusses at a higher level
        contract performance, burn rates, SLA's and any issues that have been escalated by
        Technical Monitors or NITTSS Technical Leads. As such, there are performance
        meetings up the management chain ofboth NARA and Team Capstone.

  We agree that meetings with the contractor are certainly an important part ofthe contractor 

  monitoring process. However, we attempted to obtain documentation that detailed the 

  discussions that took place during these meetings, but were informed by the COTR that there 

  was no documentation prepared, i.e., there were no meeting minutes nor were there any action 

  items documented. While meetings may have been held to discuss contractor performance, we 

  found no evidence to support that NARA officials were evaluating Capstone contractor 

. performance on the basis of the contractor achieving the SLAs identified in the task order.

 Recommendation 3

 The Director, Technical Services Division (NHT), in conjunction with the Contracting Officer 

 for the Capstone Task Order, should require the Contracting Officer's Technical Representative 

 (COTR) for the agency's Task Order with the Capstone Corporation to: 


                                              Page 23 

                         .. NationalArchives and Records Administration 

                                                                            OIG Audit Report No. 10-05




    a. Adequately document task order surveillance efforts. For example, (1) tests and/or
analyses of contractor performance by the technical monitors should be documented; (2) minutes
should be prepared for meetings held where the contractor’s performance is discussed; (3) the
COTR should maintain an official file containing contractual documentation and monitoring
results, and (4) written reports, addressing all aspects of the contractor’s performance, including
cost effectiveness, quality, and timeliness of performance, should be provided to the CO.

    b. Prepare a surveillance plan that supplements the requirements of the Quality Assurance
Surveillance Plan (QASP) prepared for the task order. That surveillance plan should describe the
(1) surveillance methodology or steps to be performed by the technical monitors, (2) frequency
of surveillance, (3) metrics for measuring acceptable contractor performance, and (4) reporting
requirements.

   c. Monitor and evaluate the contractor’s performance, to determine compliance with the
Service Level Agreements (SLAs) requirements of the task order.

Management Response

Management officials concurred with the intent of the recommendation, but did not indicate that
they planned to take corrective action.

According to them:

    · The COR represents the CO in all task order-related matters. As such, NHT does not have
the authority to direct the COR to perform task order-related duties.

   · The CO of the Capstone task order deems the documentation provided to be adequate as is.

    · The Quality Assurance Surveillance Plan (QASP), as supplemented by the individual
monitoring plans managed by each technical monitor, is adequate. The CO will work with the
COR to formally update the QASP to include the individual TM Plans, although they have been
in practice.

    · Monitoring of compliance with SLAs has been on-going and will continue, since
performance began on the Capstone task order.

OIG Response to Management Comments

Based on management’s comments, we revised the recommendation, to require that the
Contracting Officer assist in directing the COTR to perform the recommended task order-
directed duties.

We met with the COTR on October 15, 2009, and discovered that she did not maintain a file
and/or folder dedicated to contractor monitoring activities or the results of those monitoring

                                            Page 24
                         National Archives and Records Administration
                                                                           OIG Audit Report No. 10-05



activities conducted by her and the contract Technical Monitors. Instead, the COTR explained
that she had some documents on her desk and others in various folders, while other information
related to monitoring activities was in e-mail messages. She refused to allow us access to those
folders. Instead, she insisted that we tell her what we wanted to review, and she would provide it
to us.

Several times during our audit fieldwork, we asked the COTR to provide a surveillance plan for
the task order that provided guidance specifying all the work requiring surveillance and the
method(s) of surveillance, i.e, (a) how the technical monitors were to observe, test/sample, and
evaluate the contractor’s performance, (b) the frequency of surveillance, and (c) how the
technical monitors were to document contractor performance. Each time, the COTR replied that
surveillance plans were being developed and that she would provide them to us in the near
future. However, as of the completion of our fieldwork, no surveillance plans had been provided
to us.

In addition, we were provided with no documentation during the audit to support that contractor
performance was evaluated on the basis of the contractor achieving the SLAs in the task order.




                                            Page 25
                         National Archives and Records Administration
                                                                                            OIG Audit Report No. 10-05



                                    TASK ORDER REQUIREMENTS


Capstone Task Order provisions require that each invoice20 include the following information
and/or attached documentation: (a) name of the business concern (prime contractor) and invoice
date; (b) GSA contract number and NARA task order number; (c) description, price, quantity,
and dates of services delivered by CLIN and/or SubCLIN number(s); (d) payment terms; (e)
Data Universal Numbering System (DUNS) number21; and (f) taxpayer’s identification number.

In addition, during performance of a T&M contract, a contractor must substantiate its invoices by
evidence of actual payment and by individual daily job timecards, or other substantiation
approved by the CO. The COTR is responsible for examining the documentation supporting the
contractor invoices (e.g., timecards, contractor sign-in sheets, overtime records, monthly status
reports, etc.) to verify the accuracy of the billings. Without this information, the COTR could
not determine if the billed costs were accurate, or if the contractor was performing its tasks in an
efficient and effective manner. If contract costs are not monitored by the COTR, a contractor
may receive payments that exceed the costs actually incurred to accomplish contract
requirements, or may not perform in an efficient and effective manner.

 The Data Requirement Item (DRI) identifies and directs the contractor to provide and deliver
data. It identifies and describes the content, format, and delivery instructions for each
deliverable task order data requirement. It also specifies approval and acceptance criteria for
each data item. The requesting unit is responsible for coordinating with all functional
organizations to identify data deliverables. Each data item identified and requested must have a
DRI provided in the procurement request package by the requesting unit. NARA’s task order
with the Capstone Corporation contains a list of 40 data deliverables to be produced by the
contractor as part of the work defined in the SOW.

Task Order Invoicing Requirements were
Not being Met

The contractor was not complying fully with the task order’s Invoice Submission Requirements.
The terms of the task order require that, ―  Invoices that contain T&M work shall be accompanied
by signed timesheets for all personnel billed, and shall indicate the CLIN and sub-CLIN(s) under
which each person worked.‖ Task order management officials, i.e., the CO and the COTR, did
not direct the prime contractor to comply with this requirement. As a result, they failed to
effectively fulfill their fiduciary responsibility to protect the interests of the government by
ensuring that task order billings were accurate and supported by reliable, detailed records, and by
improperly approving contractor invoices for payment without obtaining adequate supporting
documentation.

Management officials took exception to our finding that the contract invoicing requirements
were not being met because timesheets were not submitted, even though the contract contains

20
  An invoice is a detailed list of goods shipped or services rendered, with an account of all costs (itemized bill).
21
  The Data Universal Numbering System, abbreviated as DUNS, is a system developed and regulated by Dun &
Bradstreet (D&B) which assigns a unique numeric identifier to a single business entity.
                                                  Page 26
                               National Archives and Records Administration
                                                                                        OIG Audit Report No. 10-05



this requirement. We based this finding on a review of the terms and provisions of the contract.
Contracting officials included in the contract a requirement for invoices containing T&M work
to be accompanied by signed timesheets for all personnel billed. The report merely states that
the contractor was not complying with this requirement, and the CO and the COTR had taken no
action to have the contractor comply. Reviewing signed employee timesheets assists the COTR
in assessing the reasonableness and accuracy of direct labor costs billed to the government

When asked to provide copies of signed timesheets for all personnel billed on the contractor’s
invoice, the CO told us that she and the COTR went to the contractor's facility in February (prior
to Task Order start) and met with them for about 2.5 hours about their Deltek22 System, timecard
capabilities, and invoice capabilities. Therefore, according to her, they fully understood the
relationship of the timecards to the invoice, and how the invoice represented actual electronic
timecards. However, understanding how the contactor’s billing system works does not relieve
NARA officials of the responsibility for verifying the accuracy of the invoices, by reviewing
actual timecards or inputs, that identify hours worked and the projects/tasks to which the
employees charged their time.

According to management officials, the invoices submitted by Capstone comply with the
commercial invoice clause that applies to the Task Order. Moreover, the CO and COTR state
they took steps to ensure that invoices submitted by Capstone are accurate and supported. In
particular, the CO and COTR visited Capstone’s facility and reviewed how the timesheets were
electronically input into Deltek and how Deltek data output provided detailed time and cost
support for invoices. Capstone uses Deltek GCS Premier which was developed in conjunction
with FAR and Cost Accounting Standards (CAS) and is designed to be fully compliant with
Defense Contract Audit Agency (DCAA) requirements. The CO and COR were confident that
the Deltek system data output provided the necessary details to support an invoice compliant
with the requirements of FAR 52.212-4(g). However, the fact that the Capstone Corporation has
an accounting system that was developed in conjunction with FAR and CAS, and is compliant
with DCAA requirements, does not relieve NARA officials of verifying the inputs to that system
to verify costs charged by the contractor and billed to the government on a T&M task order.

In addition, the contractor’s proposal indicates that a large amount of the contract effort, i.e.,
over 40 percent, will be performed by subcontractors. Yet, there was no evidence to support that
the CO and the COTR visited subcontractor facilities to review their accounting systems.

The CO also told us that she would modify the task order verbiage to be consistent with the
commercial T&M invoice clause, which states that the government "may" request timesheets. In
our opinion, it would not be in the government’s best interest to make this modification to the
task order. This requirement should be enforced, because reviewing signed employee time
sheets, or otherwise reviewing the inputs an employee makes into an automated system, is a
good way to identify the projects and tasks to which the employee charged his/her time and to
verify the accuracy of the billed charges shown on the contractor’s invoice.

22
   Deltek develops software for use by companies that are project focused, such as government contractors, who
must, under U.S. government procurement law, track costs by individual contract, and in some cases by task order or
line item.
                                                Page 27
                             National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05




Management officials recognize that the Task Order, when initially awarded included a
requirement to provide timesheets. They have explained the current situation:

       However, after the CO reviewed the Deltek system, she informed Capstone that they did
       not need to submit the timesheets with the invoices and she would modify the Task Order
       to reflect the change later. The decision was not only within her authority as the CO, but
       required because the additional burden of providing timesheets was contrary to the
       invoice requirements of the FAR.

Yet at the time of our review, the Capstone Task Order contained the requirement for the
contractor to submit signed, employee timesheets with its invoices. It appears this change was
made informally and not through an official contract modification. We found nothing in the
contract file to support such a change to the contract.

A contract modification is any documented alteration in the specification, delivery, contract
period, price, quantity, or other contract provisions of any existing contract, whether
accomplished by unilateral action in accordance with a contract provision (change order), or by
mutual action of the parties to the contract (contract amendment). It also includes administrative
changes, notices of termination, field orders, and notices of exercise of a contract option and
contract extensions. Unless expressly authorized by contract or regulations, a contract
modification must be written if the contract to be modified is written.

According To A Guide To Best Practices For Contract Administration, Office Of Federal
Procurement Policy (OFPP), October 1994, when reviewing vouchers under cost reimbursement
contracts, the COTR should review the contractor's time cards, sign-in-sheets, and overtime
records to help assess the reasonableness of direct labor costs. Thus in any event, deleting the
requirement for signed, employee timesheets, without instituting another compensating control,
eliminated a good way to identify the projects and tasks to which an employee charged his/her
time and to verify the accuracy of the billed charges shown on the contractor’s invoice.

The COTR was making Changes to Contractor
“Draft” Invoices

Although not required by the terms of the task order, we noted that the contractor was submitting
―draft‖ invoices to the COTR for review, prior to submitting the ―  final‖ invoice for payment.
The task order requires that all invoices be submitted by calendar month, no later than the fifth
(5th) business day of the second (2nd) month after work is completed. The task order makes no
mention of the contractor having to submit draft invoices for review. When asked why the
contractor was submitting draft invoices, the COTR responded that she requested the contractor
to provide draft invoices, so that she would not have to reject the contractor’s final invoices.

We noted that the COTR made changes to four of the five contractor’s draft invoices we
reviewed. We attempted to obtain documentation identifying the changes made, or an
explanation of the need for the changes made, but, as of the completion of our review, the COTR

                                            Page 28
                         National Archives and Records Administration
                                                                             OIG Audit Report No. 10-05.



had failed to respond to our requests. As a result, we were unable to ascertain the reasons for the
changes made to the invoices, and whether those changes were appropriate. (For details of the
changes made to the contractor's "draft" invoices, see Attachment 2.) - - - - - - - - ­


Data Items Not Delivered 

in a Timely Manner 


The contractor has failed to satisfy task order requirements related to the delivery of data items.
For example, we noted that two important deliverables - the Risk Management Plan and System
Tuning Implementation Plan - have not been submitted by the contractor in accordance with the
terms of the task order. We are concerned about the potential impact on NARA's computer
network operation and maintenance as a result ofthe contractor not meeting its contractual
requirements.

When we asked the COTR what actions she planned to take to remedy this situation and to
ensure the contractor meets. the terms of the task order, she responded that no final actions have
been taken. Per the COTR:

       The contractor has been working diligently on deliverables. Many of them require
       feedback from multiple parties and re-work. In many instances they have also required
       meetings to discuss the comments and differences of opinion between the contractors and
       the government. We have been trying to prioritize the deliverables by importance as we
       work with the contractors on them. Our goal is to ensure that we have a quality product
       delivered. The contractors have proposed many new industry standard best practices
       which in some cases the Government staff may not agree with. As the COTR I discuss
       the status of deliverables with the PM on a weekly basis. I also facilitate some of the
       discussions requited between the technical monitors and the contractors regarding
       deliverable content and NARA's openness to new ideas/practices being proposed.

When made aware of this situation,NARA's Deputy Chief Information Officer (CIO) stated:

       The schedule of deliverables in the contract was very aggressive. I don't think we fully
       realized the work load this schedule would put on our oWn staff in terms of reviewing and
       commenting on all of these documents in such a short time frame. Having said that, the
       contract is the contract and they need to either deliver the documents on time or formally
       ask for some relief on the schedule.

The Director, NAA; stated:

      It appears that the Government has caused some, if not many, ofthe delays through our
      inability to review the Capstone deliveries in a timely manner. The COTR has not
      expressed to me that she was having problems that she couldn't manage.



                                             Page 29
                        .N(ltiQ1'l(llArchive~(lrtdRecQrdsAdministratj(m
                                                                           OIG Audit Report No. 10-05



Subsequently, the COTR was tasked with providing a (a) list of deliverables that were late
because of Capstone's inability to meet the schedule; (b) list of deliverables that were delayed
due to Government actions; and (c) recommended realistic delivery schedule that will provide
sufficient time for the government officials to conduct a review of the deliverables. The COTR
prepared a revised schedule of deliverables, and provided us with a copy of the schedule after
our field work was completed.

In our opinion, two factors may have contributed to this condition: (1) the agency did not ensure
that sufficient resources were available and/or assigned to effectively monitor the quality and
performance of the contractor’s effort, and (2) the COTR did not notify the CO when the
contractor failed to deliver task order deliverables in a timely manner.

The technical administration of government contracts is an essential activity. It is absolutely
essential that those entrusted with the duty to ensure that the government gets all that it has
bargained for must be competent in the practices of contract administration and aware of and
faithful to the contents and limits of their delegation of authority from the CO. The COTR
functions as the "eyes and ears" of the CO, monitoring technical performance and reporting any
potential or actual problems to the CO. It is imperative that the COTR stay in close
communication with the CO, relaying any information that may affect contractual commitments
and requirements.

Recommendation 4

The Director, Acquisitions Services Division (NAA), should direct the CO for the NITTSS Task
Order to require contractor compliance with the contract’s invoice submission requirements,
including the (a) submission of signed timesheets or comparable data for time-and-materials
(T&M) work, and (b) identification of contract line item numbers (CLINs) and sub-CLINs under
which each employee worked.

Management Response

Management officials concurred with the intent of the recommendation, but did not indicate that
they planned to take corrective action.

According to them, Capstone does comply with the commercial invoice clause that is included in
the task order. The conflicting non-commercial language requirement for timesheets submission
was removed from the task order as it was contrary to the requirements of the FAR, specifically
FAR 12.302(b). The invoice supporting documentation contains breakouts by line item and sub-
line item, including number of hours worked by individuals, their labor rate, and the associated
cost.

OIG Response to Management Comments

The FAR site referenced in management’s comment has no bearing on the issue discussed in our
report. FAR 12.302(b), requires that the following paragraphs of the clause 52.212-4, Contract

                                            Page 30
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05



Terms and Conditions—Commercial Items, not be tailored— (1) Assignments; (2) Disputes; (3)
Payment (except as provided in Subpart 32.11); (4) Invoice; (5) Other compliances; and (6)
Compliance with laws unique to Government contracts. However, the audit report’s finding and
recommendation does not address or recommend ―     tailoring‖ of the FAR clause provisions.
Instead, the report addresses supporting documentation for contractor invoices that could be used
by government officials to help verify the accuracy and validity of the contractor costs charged
in the invoice.

Management officials did not cite the more relevant FAR clause 52.232-7, Payments under
Time-and-Materials and Labor-Hour Contracts, contained in the task order, This clause requires
the contractor to substantiate vouchers (including any subcontractor hours reimbursed at the
hourly rate in the schedule) by evidence of actual payment and by— (i) Individual daily job
timekeeping records; (ii) Records that verify the employees meet the qualifications for the labor
categories specified in the contract; or (iii) Other substantiation approved by the Contracting
Officer.

Initially, contracting officials wisely included in the task order a requirement for invoices
containing T&M work to be accompanied by signed timesheets for all personnel billed. This
requirement complied with the requirements of FAR 52.232-7 Payments under Time-and-
Materials and Labor-Hour Contracts

Our report merely states that the contractor was not complying with this requirement, and the CO
and the COTR had taken no action to have the contractor comply. Reviewing signed employee
timesheets assists the COTR in assessing the reasonableness and accuracy of direct labor costs
billed to the government

Although management commented that the requirement was removed from the task order, as of
the conclusion of our review, the task order still contained the requirement for the contractor to
submit signed, employee timesheets with its invoices. Apparently, the change was made
informally and not through an official contract modification. We found nothing in the contract
file to support such a change to the contract.

In any event, deleting the requirement for signed, employee timesheets, without instituting
another compensating control, eliminated a good way to identify the projects and tasks to which
an employee charged his/her time and to verify the accuracy of the billed charges shown on the
contractor’s invoice.

Recommendation 5

The CO for the Capstone Corporation Task Order should direct the COTR for the Task Order to:

   a. do away with the requirement for the contractor to provide draft invoices for review, or

   b. document the results of her reviews of the draft invoices, share the results of her reviews
with the CO, and retain that documentation in her contract folder.
                                            Page 31
                         National Archives and Records Administration
                                                                            OIG Audit Report No. 10-05




Management Response

Management officials concurred with the intent of the recommendation, but did not indicate that
they planned to take corrective action.

According to those officials, there is a benefit to helping a small business processes. Therefore,
NARA sees no need to discontinue the draft invoice process if the COR wishes to continue
extending assistance and the contractor wishes to continue to submit draft invoices to avoid
delays in processing final invoices. The COR maintains the draft invoice documentation in her
case file .

.OIG Response to Management Comments

We noted that, according to Capstone Corporation's web site, the company "is a leading global
services and solutions provider, supporting customers in over twenty six states and seven
overseas locations. Our primary customer focus is within the federal government and the
Department of Defense."

Although the Capstone Corporation is classified as a small business, it is not a new business.
The GSA contract under which the task order was issued has been in effect for approximately 12
years, since September 3, 1998. In our opinion, the contractor should possess the ability, at this
point in time, to submit an accurate invoice for payment without the COR's assistance.

FAR clause 52.232-7, Payments under Time-and-Materials and Labor-Hour Contracts, found in
the task order, contains detailed instructions for submitting invoices for payment. For each
invoice, the contractor bills the government for th.e actual hours (that include overhead, general
and administrative expenses, and profit) expended during the period covered by the invoice, and
materials at cost. No reasonable explanation exists for why the COR must assist Capstone in
billing for the actual expenses incurred in the performance ofthe taskorder.

Management also responded that the COR maintains draft invoice documentation in her case file.
However, as previously discussed in the report, when we attemptedto obtain documentation
identifying the changes made, or an explanation of the need for the changes made, the COR
failed to respond to our request. - - - - - - - - - - - - - - - - - - - - - - ­


Recommendation 6

The contracting officer for the Capstone Corporation Task Order should direct the Contracting
Officer's Technical Representative for the Task Order to inform himlher, in a timely manner, of
any technical or contractual difficulties with contractor performance.




                                            Page 32
                         National Archives and-Records Administration
                                                                            OIG Audit Report No. 10-05



Management Response

Management officials concurred with the recommendation, stating that the COR has and
continues to keep the CO informed in a timely manner of technical or contractual difficulties
with task order performance.

OIG Response to Management Comments

Although management officials commented that the COR has kept the CO informed in a timely
manner of technical or contractual difficulties with task order performance, our review disclosed
that this is not occurring.

As reported above, the contractor failed to satisfy task order requirements related to the delivery
of data items. However, the COR never informed the CO of this problem. Therefore, the CO
needs to counsel the COR on the importance of keeping her informed of contractor performance.




                                            Page 33
                         National Archives and Records Administration
                                                                                   OIG Audit Report No. 10-05



                                          OTHER MATTERS

Subcontract Costs Could Have Been Reduced

Our review also disclosed that NARA officials had the option of negotiating a reduced rate for
subcontracted labor on the NITTSS Task Order. Currently, actual charges billed by the major
subcontractor and paid by the prime contractor are less than the amounts billed by the prime
contractor to NARA. This condition exists because the prime contractor, Capstone Corporation,
is billing NARA for all direct labor, including subcontract labor, at its own higher labor rates
instead of the lower rates billed by the subcontractors. While this practice is legal, commonplace
and accepted in the acquisition community, NARA could have possibly structured the Task
Order to pay less for subcontracted labor when the actual cost of subcontract labor is lower than
the prime contractor’s rate.

According to the prime contractor’s contract proposal, General Dynamics Information
Technology (GDIT), Incorporated, the major subcontractor, will expend approximately 40
percent of the labor dollar cost for the Task Order. As a result, assuming the percentage of GDIT
labor cost billed on the first invoice remains the same throughout the entire Task Order period of
performance, we estimate that over the life of the Task Order, if all options are exercised, NARA
will pay the prime contractor an excess of approximately $1.606 million. This is in excess of the
amount the prime contractor is already paid for any management functions under the FFP part of
this task order. Labor charges for other subcontractors were not included in our review because
those subcontract costs were considered to be minimal.

Currently this task order is performed under a prime contractor/subcontractor relationship instead
of a partnership or joint venture type of Contractor Teaming Arrangement (CTA). As a result,
NARA will not realize the potential savings that would have been possible under a CTA.

According to GSA, a CTA is an arrangement between two or more GSA Schedule contractors to
work together to meet agency requirements. The CTA document is a written agreement between
team members detailing the responsibilities of each team member. The CTA allows the
contractor to meet the government agency needs by providing a total solution that combines the
supplies and/or services from the team members' separate GSA Schedule contracts. Under a
CTA, the ordering activity is invoiced at each team member's unit prices or hourly rates as
agreed in the task or delivery order.

Concerns about the type of setup NARA currently employs, which is a standard commercial
business practice, have been expressed by the GAO, the Department of Defense (DOD), and the
DCAA. In an audit of DOD contracting23, GAO found that contracts specified various ways
prime contractors can be reimbursed for subcontracted labor. Some required the prime contractor
to be reimbursed for the actual costs it paid for the subcontracted labor, others set forth separate
rates for subcontractors, some contained ―  blended‖ prime and subcontract rates, and some
permitted the prime contractor to be reimbursed for subcontracted labor at the prime’s own rates.
23
  Defense Contracting: Improved Insight and Control Needed over DOD’s Time-and-Materials Contracts, dated
June 2007 (GAO-07-273)
                                               Page 34
                            National Archives and Records Administration
                                                                                   OIG Audit Report No. 10-05



The last category in particular has caused some concern within DOD. For example, DCAA audit
reports have questioned costs under this billing arrangement, claiming the differential to be
additional profit to the prime contractor.

According to GAO, ―   The issue of how the government should reimburse prime contractors for
subcontracted labor has been a matter of debate. For example, as noted above, DCAA has
questioned contractors’ proposed costs or billings for subcontracted labor at amounts other than
the actual costs when the standard T&M payments clause was included in the contract. In
instances in which the contract specifically permitted the prime to bill for subcontracted labor at
the prime contract rates, DCAA did not question those costs. In its official comments on
proposed FAR cases pertaining to T&M contracts24, DCAA stated that such a practice places the
government at a greater risk of paying costs higher than what prime contractors actually pay
without receiving any additional benefits.

Subcontract labor rates would be less important if the NITTSS Task Order were a fixed-price
task order. Under a fixed-price arrangement, the contractor bears the risk of contract
performance. On the other hand, under a T&M arrangement, the government bears the risk of
contract performance, while the contractor bears little, if any, risk. T&M contracts only require a
―best effort‖ by the contractor. If the contractor expends all the hours and the contractual effort
has not been completed, the government must add additional funding to the contract, if desired,
in order for the contractor to complete the effort. In addition, there may be insufficient
motivation for prime contractors to ensure the subcontractors perform efficiently, when the
prime receives additional profit on every labor hour expended by the subcontractors in the
performance of this task order.

We again stress that the current task order set-up violates absolutely no regulations, and in fact is
endorsed by FAR definitions and is commonplace throughout federal contracting. However,
opportunities to further conserve scarce fiscal resources are present, and should at least be
considered in the future.




24
  FAR Cases 2004-015 ―   Payments under Time-and-Materials and Labor-Hour Contracts‖ (70 Fed. Reg. 56,314
(Sept. 26, 2005)) and 2003-027 ―Additional Contract Types‖ (70 Fed. Reg. 56,318 (Sept. 26, 2005)).
                                               Page 35
                            National Archives and Records Administration
                                                                                                                        OIG Audit Report No. 10-05




                                                                                                                              ATTACHMENT 1


                            CAPSTONE LABOR CHARGES VS. GENERAL DYNAMICS LABOR CHARGES




                                         1,062             51.85            55,064.41

                                          168              69.85            11,734.80
                     Principal
                    Information            184             84.66            15,577.44
                                                                                                                                                                 beL!)
                                          184              92.76            17,067.84

                                          849              88.01            74720.49

                                         546;5             69.22            37828.73



                      FOSAI
                                          184

                                          364
                                                           85,77

                                                           58.72
                                                                            15,781.68

                                                                            21,374.08
                                                                                               '­
                      FOSAII              689              71.10            48,987.90

                    'TOTALS                                               $306,225.51                             $l8.,984~I'         .' ~,%41.33'




                                                                                Page 36                                   .

. .'-, .""" .. "' --.- '-'- ... ,..._-.-._.."--:-... , ·:--:NatiO!UlrAFc-hi:ve.s-and·Reeords-AdminiStFation:~-"'·· ..-".,_.,_."'_ . "-'-::' .:.~~ ...... _.. -............... 

                                                                                                OIG Audit Report No. 10-05




                                                                                                     ATTACHMENT 2

                                  REVIEW OF THE CAPSTONE TASK ORDER
                                    INVOICE REVIEW – DRAFT VS FINAL


                                          DRAFT                        FINAL                   DIFFERENCE

 CLIN       DESCRIPTION         HOURS        AMOUNT          HOURS         AMOUNT        HOURS           AMOUNT

                               INVOICE NO. 1 – APRIL 1 THROUGH APRIL 30, 2009

  2A     Princ Telecom Engnr       9.3        $1,023.05         9.3          $952.84       0               $70.21

  2A     Sr System Admin          120         10,561.20         0                0        120             10,561.20

  2E     Sr System Admin          1,257       110,628.57       1,377        121,189.77    120             10,561.20

  2M     Sr Info Engnr            123          7,222.56        123           8,745.30      0              1,522.74

  3      ODCs                                 16,118.53                     13,097.41                     3,021.12

TOTALS                                       $916,033.25                   $914,464.66                    $1,568.59

                                INVOICE NO. 2 – MAY 1 THROUGH MAY 31, 2009

  3      ODCs                                  9,026.15                      8,676.51                      349.64

TOTALS                                       $831,055.00                   $830,705.36                    $349.64




                                                     Page 37
                                  National Archives and Records Administration
                                                                                        OIG Audit Report No. 10-05




                                    DRAFT                         FINAL                DIFFERENCE

 CLIN      DESCRIPTION      HOURS        AMOUNT          HOURS         AMOUNT        HOURS       AMOUNT

                           INVOICE NO. 3 – JUNE 1 THROUGH JUNE 30, 2009

  3      ODCs                            $33,723.65                     $26,517.16                $7,206.49

TOTALS                                  $957,963.02                    $950,756.53               $7,206.49

                           INVOICE NO. 4 – JULY 1 THROUGH JULY 31, 2009

  3      ODCs                            $16,880.35                          $0                  $16,880.35

TOTALS                                  $878,270.25                    $861,389.90               $16,880.35

                         INVOICE NO. 5 – AUGUST 1 THROUGH AUGUST 31, 2009

  3      ODCs                                $0                              $0                      $0

TOTALS                                  $845,756.18                    $845,756.18                   $0




                                                 Page 38
                              National Archives and Records Administration
                                                                                                                  OIG Audit Report No. 10-05




                                                                                                                          ATTACHMENT 3



                                                                  SAMPLE

        QUALITY ASSURANCE SURVEILLANCE PLAN (QASP)

                                                    TABLE OF CONTENTS

1.0 INTRODUCTION .......................................................................................... 40


  1.1    PURPOSE........................................................................................................................ 40


  1.2    PERFORMANCE MANAGEMENT APPROACH..................................................... 40


  1.3 PERFORMANCE MANAGEMENT STRATEGY ..................................................... 41

2.0 ROLES AND RESPONSIBILITIES ................................................................... 41

3.0 IDENTIFICATION OF SERVICES TO BE PERFORMED ...................................... 41

4.0 METHODOLOGIES TO MONITOR PERFORMANCE .......................................... 41

5.0 QUALITY ASSURANCE REPORTING.............................................................. 42

6.0 ANALYSIS OF QUALITY ASSURANCE MONITORING RESULTS ....................... 42

7.0. FAILURE TO PERFORM ................................................................................ 43


                                                    LIST OF ATTACHMENTS

ATTACHMENT I - REQUIRED PERFORMANCE METRICS (RPM) TABLE………. ....... 44

ATTACHMENT II – QUALITY ASSURANCE MONITORING FORM (QAMF) .............. 45

ATTACHMENT III – QAMF - CUSTOMER COMPLIANT INVESTIGATION................. 46


Attachment I contains a table that identifies performance-based measures which will be used to monitor
Contractor performance. The XXX will periodically evaluate the Contractor’s performance by appointing
a representative(s) to monitor performance to ensure services are received. The XXX representative will
evaluate the Contractor’s daily performance through personal dealings and direct inspections of work
products and demonstrated knowledge of applicable regulations. The XXX may conduct random facility
inspections and increase the number of quality control inspections if deemed appropriate because of
repeated failures discovered during quality control inspections or because of repeated customer
complaints. Likewise, the XXX may decrease the number of quality control inspections if performance
dictates. The XXX representative shall make final determination of the validity of customer complaint(s).

If any of the services do not conform to contract requirements, the XXX may require the Contractor to
perform the services again in conformity with contract requirements, at no increase in contract amount.
When the defects in services cannot be corrected by re-performance, the XXX may:


                                                        Page 39

                                     National Archives and Records Administration
                                                                                  OIG Audit Report No. 10-05



(a) Require the Contractor to take necessary action to ensure that future performance conforms to contract
requirements; and

(b) Reduce the contract price to reflect the reduced value of the services performed. Performance scoring
will be in accordance with the acceptable quality level identified
in the performance measurements table.

                       QUALITY ASSURANCE SURVEILLANCE PLAN
                                      (QASP)



1.0     INTRODUCTION

This Quality Assurance Surveillance Plan (QASP) is pursuant to the requirements listed in the
performance-based Performance Work Statement (PWS) for XXXXXX. This performance-based plan
sets forth the procedures and guidelines the XXX will use in evaluating the technical performance of the
XXXXXX contractor.
1.1     PURPOSE

1.1.1.      The purpose of the QASP is to describe the systematic methods used to measure performance
and to identify the reports required and the resources to be employed. The QASP provides a means for
evaluating whether the contractor is meeting the performance standards identified in the PWS.

1.1.2        This QASP is designed to define roles and responsibilities, identify the performance
objectives, define the methodologies used to monitor and evaluate the contractor’s performance, describe
quality assurance reporting, and describe the analysis of quality assurance monitoring results.

1.2     PERFORMANCE MANAGEMENT APPROACH

1.2.1        The performance-based PWS structures the acquisition around ―wh at‖ service is required as
opposed to ―how‖ the contractor should perform the work. This QASP will define the performance
management approach taken by the XXX to monitor, manage, and take appropriate action on the
contractor’s performance against expected outcomes or performance objectives communicated in the
PWS. Performance management rests upon developing a capability to review and analyze information
generated through performance metrics. The ability to make decisions based on the analysis of
performance data is the cornerstone of performance management. The data generated in a performance
management approach provides information that indicates whether or not expected outcomes for required
services are being achieved adequately by the contractor.


1.2.2        Performance management also represents a significant shift from the more traditional Quality
Assurance (QA) concepts in several ways. Performance management focuses on assessing whether or not
outcomes are being achieved and migrates away from scrutiny on compliance with the processes and
practices used to achieve the outcome. The only exceptions to process reviews are those required by law
(Federal, State, and local) and compelling business situations such as safety and health. An outcome
focus provides the contractor flexibility to continuously improve and innovate over the course of the
contract as long as the critical outcomes expected are being achieved at the desired levels of performance.
                                              Page 40
                           National Archives and Records Administration
                                                                                    OIG Audit Report No. 10-05




1.3     PERFORMANCE MANAGEMENT STRATEGY

1.3.1          The contractor’s internal quality control system will set forth the staffing
and procedures for self inspecting the quality, timeliness, responsiveness, customer
satisfaction, and other performance requirements in the PWS. The contractor will
utilize its internal quality control system to assess and report their performance to the designated
Government representative.

1.3.2       The Government representative will monitor performance and review performance reports
furnished by the contractor to determine how the contractor is performing against communicated
performance objectives. The Government will make decisions based on performance measurement metric
data and notify the contractor of those decisions. The contractor will be responsible for making required
changes in processes and practices to ensure performance is managed effectively.

2.0     ROLES AND RESPONSIBILITIES

2.1.The Contracting Officer (CO) is responsible for monitoring contract compliance, contract
administration and cost control; and resolving any differences between the observations documented by
the Contracting Officer’s Technical Representative (COR) and the contractor’s performance.

2.2The CO will designate one full-time COR as the Government authority for performance management.
The number of additional representatives serving as Technical Inspectors depends upon the complexity of
the services measured as well as the contractor’s performance.

2.3The COR is responsible for monitoring, assessing, and communicating the technical performance of
the contractor and assisting the contractor. The COR will have the responsibility for completing QA
monitoring forms (refer to Attachments II and III) used to document the inspection and evaluation of the
contractor’s work performance. Government surveillance may occur under the Inspection of Services
clause for any service relating to the contract.

3.0     IDENTIFICATION OF SERVICES TO BE PERFORMED

The contractor shall provide XXXXXX Fund Administration service support in accordance with the
PWS. The performance standards are established in the paragraph of the PWS that covers the specific
category of work. The acceptable level of performance is set in the acceptable quality level related to that
paragraph.

4.0     METHODOLOGIES TO MONITOR PERFORMANCE

4.1In an effort to minimize the contract administration burden, simplified methods of
surveillance techniques shall be used by the Government to evaluate contractor
performance. The primary methods of surveillance are reports and customer
input/feedback. The Government will use appointed representatives, as well as reports and input from
users/customers as sources of comments on the contractor’s performance.

4.2The contractor is expected to establish and maintain professional communication
between its employees and customers. The primary objective of professional
communication between employees and customers is customer satisfaction. Customer
                                               Page 41
                            National Archives and Records Administration
                                                                                  OIG Audit Report No. 10-05



satisfaction is the most significant external indicator of the success and effectiveness of
all services provided and can be measured through customer complaints. Performance management drives
the contractor to be customer focused through initially addressing customer complaints and investigating
the issues and/or problems.

NOTE: The customer always has the option to communicate complaints to the COR as opposed to the
contractor. The COR will accept the customer complaints and will investigate using the Quality
Assurance Monitoring Form – Customer Complaint Investigation identified in Attachment III.

4.3The acceptable quality levels (AQL) located in Attachment 1, Required Performance Metrics Table,
for contractor performance, are structured to allow the contractor to manage how the work is performed
while providing negative incentives for performance shortfalls. For two (2) of the activities, the desired
performance level is established at one hundred percent (100%). The other levels of performance is
established at percentages somewhat less than 100%. All are keyed to the relative importance of the task
to the overall mission performance.

5.0     QUALITY ASSURANCE REPORTING

5.1The performance management feedback loop begins with the communication of expected outcomes.
Performance standards are expressed in the PWS and measured by the required performance metrics in
Attachment I.

5.2The Government’s QA monitoring, accomplished by the COR (and others as designated) will be
reported using the monitoring forms in Attachments II and III. The forms, when completed, will
document the COR’s understanding of the contractor’s performance under the contract to ensure that the
PWS requirements are being met.

5.2.1The COR will retain a copy of all completed QA monitoring forms.

6.0  ANALYSIS OF QUALITY ASSURANCE MONITORING
RESULTS

6.1The Government shall use the observation methods cited to determine whether the AQLs have been
met. The Government’s evaluation is then translated into the specific negative incentives that cause
adjustments to the contractor’s monthly payments.

6.2At the end of each month, the COR will prepare a written report for the CO
summarizing the overall results of the quality assurance monitoring of the contractor’s performance. This
written report consists of the contractor’s submitted monthly progress report and the completed Quality
Assurance Monitoring Forms (Attachment II) will
become part of the QA documentation.

6.3The CO may require the contractor’s project manager, or a designated alternate, to meet with the CO
and other Government personnel as deemed necessary to discuss
performance evaluation. The COR will define a frequency of in-depth reviews with the contractor,
however if the need arises, the contractor will meet with the CO as often as required or per the
contractor’s request. The agenda of the reviews may discuss:
             Monthly performance measured by the metrics and trends

             Issues and concerns of both parties

                                              Page 42
                           National Archives and Records Administration
                                                                                    OIG Audit Report No. 10-05



               Projected outlook for upcoming months and progress against expected trend
               Recommendations made by the COR based on contractor information
               Issues arising from independent reviews and inspections

6.4In addition to QA monitoring, the COR will use the information contained in the contractor’s monthly
report to assess the contractor’s level of performance for each objective measured in this QASP (detailed
in Attachment I). The COR must coordinate and communicate with the contractor to resolve issues and
concerns of marginal or unacceptable performance. The contractor will discuss with the CO/COR
satisfaction ratings receiving a ―less than acceptable‖ rating. For such cases, the contractor should
highlight its perspective on factors driving customer satisfaction and present plans to adjust service levels
accordingly to bring the satisfaction rating up to an acceptable level.

6.5The CO/COR and contractor should jointly formulate tactical and long–term courses of action.
Decisions regarding changes to metrics, thresholds, or service levels should be clearly documented.
Changes to service levels, procedures, and metrics will be incorporated as a contract modification at the
convenience of the CO.

7.0.       FAILURE TO PERFORM

7.1The contractor may receive deductions or even termination based on failure to perform. The following
criteria apply for determining appropriate action:

       1.	 Notifications. Consistent with FAR Part 49, the CO shall notify the service provider of failure to
           meet standards through QA monitoring forms, cure notices, or show cause notices and shall
           inform the service provider project manager or designated alternate of such notices.
       2.	 Deductions. The Government has the right to withhold a percentage of payment of the monthly
           cost for performing particular services based on failure to meet performance standards. The
           percentage of such withholding is identified in the Required Performance Metrics (RPM) Table
           of Attachment I.
       3.	 Termination. If the CO determines that the contractor has failed to perform to the extent that a
           termination for default is justified, the CO shall issue a notice of termination, consistent with
           FAR Part 49.




                                                 Page 43
                              National Archives and Records Administration
                                                                                                                OIG Audit Report No. 10-05



                                                                    ATTACHMENT I


                                REQUIRED PERFORMANCE METRICS (RPM) TABLE

                                                                             Acceptable        Method                           Incentive
   Required                          Performance                                                                               (Negative)
                                                                              Quality            Of
    Service                           Standards                                                                             (Impact on Contractor
                                                                               Levels        Surveillance                        Payments)

Monthly, Quarterly and     Reports submitted no later than the due dates        100%       Reports, customer, regulatory    Invoice deduction of $500
 Annual Reports on                                                                           &/or industry complaints,       for each report delivered
  Fund Status and                                                                         inspections, and/or evaluations               late
     Operations

                          Audit Plans are submitted in accordance with                     Reports, customer, regulatory
Audit Plans and Audit                 prescribed timelines.                     100%         &/or industry complaints,      Invoice deduction of $500
Reports of Providers                                                                      inspections, and/or evaluations      for each audit plan
                                                                                                                                  submitted late
                                                                                                Reports, customer,
                             Audits are conducted in accordance with                      inspections, and/or evaluations
     Audits of                         prescribed timelines.                    100%                                        Invoice deduction of $500
    Administrator                                                                                                            for each audit conducted
                                                                                                Reports, customer,                      late
                                                                                          inspections, and/or evaluations
                           Proposed compensation rates, Fund size, and
  Ratemaking and          contribution factor are calculated and proposed       100%                                        Invoice deduction of $500
 Contribution Factor       in accordance with prescribed timeliness, and                                                     for each late deliverable
  Responsibilities               accurately reflect underling data.
                                                                                             Audits, reports, service
                                                                                                   providers
                           Payments of monies are executed pursuant to
                           prescribed requirements, are supported by the                                                    Invoice deduction of $500
   Timeliness and         data submitted by the providers, are the correct      98%                                              for not meeting
accuracy of payments      amounts, and are consistent with the Improper                                                     Acceptable Quality Level
                                    Payments Information Act                                                                     or delivery date
                                                                                             Audits, reports, service
                              Collection of monies shall be executed                               providers
                             pursuant to prescribed requirements, are
                           supported by the data, and are in the correct                                                    Invoice deduction of $500
   Timeliness and                            amount                             98%                                               for not meeting
accuracy in collections                                                                                                      Acceptable Quality Level
                                                                                             Audits, reports, service            or delivery date
                              Timely and complete collection of data                               providers
                               pursuant to prescribed requirements
   Collecting and                                                                                                           Invoice deduction of $500
 Reviewing cost and                                                             98%                                               for not meeting
 demand data from                                                                                                            Acceptable Quality Level
     Providers                                                                                                                   or delivery date




                                                             Page 44
                                          National Archives and Records Administration
                                                                      OIG Audit Report No. 10-05



                                   ATTACHMENT II
                        QUALITY ASSURANCE MONITORING FORM


SERVICE or STANDARD:
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________                           _____________________________
_                             __                                                    ___
_                                                                    _________________
_                                                            _______                  _


SURVEY PERIOD:___________________

SURVEILLANCE METHOD (Check):_____Reports
                                 _____100% Inspection
                                 _____Periodic Inspection
                                 _____Customer Input/Feedback


LEVEL OF SURVEILLANCE SELECTED (Check):
                                 _____Monthly
                                 _____Quarterly
                                 _____As needed
ANALYSIS OF RESULTS:


     OBSERVED SERVICE PROVIDER PERFORMANCE MEASUREMENT RATE =
     ______%

     SERVICE PROVIDER’S PERFORMANCE (Check):____Meets Standards
                                                        ____Does Not Meet Standards


     NARRATIVE OF PERFORMANCE DURING SURVEY PERIOD:
     ________________________________________________________________________________
     ________________________________________________________________________________
     ________________________________________________________________________________
     _____________________________________________                           ________


PREPARED BY: _______________________________DATE: _____________________



                                         Page 45
                      National Archives and Records Administration
                                                                              OIG Audit Report No. 10-05



                                      ATTACHMENT III

                         QUALITY ASSURANCE MONITORING FORM –

                          CUSTOMER COMPLAINT INVESTIGATION 



SERVICE or STANDARD:
_____________________________________________________________________________________
_____________________________________________________________________________________
__________________________________________________________________         __________
__________                                              _________               _____


SURVEY PERIOD:___________________


DATE/TIME COMPLAINT RECEIVED:                         _____________________ AM / PM



SOURCE OF COMPLAINT: _______________________________ (NAME)

                                   _______________________________ (ORGANIZATION)
                                   _______________________________ (PHONE NUMBER)
                                   _______________________________ (EMAIL ADDRESS)


NATURE OF COMPLAINT:
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
______________                                                                   ____

RESULTS OF COMPLAINT INVESTIGATION:
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
________________________            _                                         _______

DATE/TIME SERVICE PROVIDER INFORMED OF COMPLAINT: _____________
_________ AM / PM

CORRECTIVE ACTION TAKEN BY SERVICE PROVIDER:
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
_____________________________________________________________________________________
_                                       ___    ____                     _____________

RECEIVED AND VALIDATED BY:                _____                  __ 


PREPARED BY: ______________________________ DATE: ______________________
                                           Page 46
                        National Archives and Records Administration
                                                                     OIG Audit Report No. 10-05



                                                                          ATTACHMENT 4


                             SURVEY OF

     INFORMATION TECHNOLOGY SUPPORT SERVICES PERFORMED AT OTHER

                       GOVERNMENT AGENCIES


                      IT SERVICES PERFORMED IN-                 CONTRACT TYPE IF
    AGENCY
                        HOUSE OR OUTSOURCED                       OUTSOURCED
Fed Maritime
                                  In-house
Commission (FMC)
Fed Election
                                  In-house
Commission (FEC)
Government Printing
                                  In-house
Office (GPO)
Library of Congress
                      Some In-house and some Outsourced         Firm-Fixed-Price (FFP)
(LOC)
National Labor
Relations Board                  Outsourced                     Firm-Fixed-Price (FFP)
(NLRB)
Federal Reserve
                                  In-house
Board (Fed)
Securities and
Exchange                         Outsourced                     Firm-Fixed-Price (FFP)
Commission (SEC)
Farm Credit
Administration                    In-house
(FCA)
Architect of the
                                 Outsourced                     Firm-Fixed-Price (FFP)
Capitol (AOC)




                                         Page 47
                      National Archives and Records Administration
Appendix A – Acronyms and Abbreviations


CAS       Cost Accounting Standards
CIO       Chief Information Officer
CLIN      Contract Line Item Number
CO        Contracting Officer
COTR      Contracting Officer’s Technical Representative
CTA       Contractor Teaming Arrangement
DCAA      Defense Contract Audit Agency
D&F       Determination and Findings
DOD       Department of Defense
DUNS      Data Universal Numbering System
FAR       Federal Acquisition Regulation
FFP       Firm-Fixed-Price
FISMA     Federal Information Security Management Act
FOSA      Field Office System Administrator
FPAF      Fixed-Price-Award-Fee
FY        Fiscal Year
GAO       Government Accountability Office
GDIT      General Dynamics Information Technology
GSA       General Services Administration
GSBCA     General Services Board of Contract Appeals
IG        Inspector General
IT        Information Technology
NAA       Acquisitions Services Division
NARA      National Archives and Records Administration
NARANet   NARA’s Computer network (known as
NH        Office of Information Services
NIST      National Institute of Standards and Technology
NITTSS    NARA Information Technology and Telecommunications Support
          Services
OFPP      Office of Federal Procurement Policy
OIG       Office of Inspector General
OMB       Office of Management and Budget
PCO       Procuring Contracting Officer
QASP      Quality Assurance Surveillance Plan
QCP       Quality Control Plan
RFQ       Request for Quotation
SLA       Service Level Agreement
SOW       Statement of Work
T&M       Time-and-Materials
US-CERT   United States Computer Emergency Readiness Team
                                                            OIG Audit Report No. 10-05


B - Report Distribution List

Archivist of the United States (N)

Deputy Archivist of the United States (ND)

Chief of Staff (NCS)

Assistant Archivist for Administrative Services (NA)

Acting Assistant Archivist for Information Services (NH)

Director of the Acquisitions Services Division (NAA)

Management Liaison Control Officer (NPOL)





                                        Page 49
                     National Archives and Records Administration
                                                 OIG Audit Report No. 10-05



Appendix C - Management’s Response to the Report




                               Page 50

            National Archives and Records Administration
